http://www.mansfieldnewsjournal.com/article/20140519/NEWS01/305190009/Husband-wife-going-prison-booster-club-scandal


  Husband, wife going to prison for booster club scandal
  Written by Mark Caudill News Journal
  May 20, 2014 |                                                                                  mansfieldnewsjournal.com

                                                                    Kendall and Bill Clemons and Cheryl Patrick
                                                                    received punishment for their part in the Tyger
                                                                    Bingo scandal.

                                                                                                 While
                                                                                                 Kendall
                                                                                                 Clemons
                                                                                                 was
                                                                                                 telling
                                                                                                 the
                                                                                                 Social
                                                                                                 Security
  Kendall and Bill Clemons and Cheryl Patrick received punishment for
                   their part in the Tyger Bingo scandal.                                        Administratio
                                                                      Clemons get a year         she
                                                                                                 was
 unable to work, she was collecting $300 a week as bookkeeper for the Mansfield Tyger All Sports Booster
 Club.

 “She said all she could do was sit in front of the window and watch traffic go by,” Richland County
 Common Pleas Judge James DeWeese said Monday.

 Clemons and her husband, William, a former Mansfield police officer, were sentenced to a year in prison
 for their roles in the improper use of more than $200,000 in scholarship money.

 Co-defendant Cheryl Patrick was sentenced to two years probation. The defendants pleaded guilty April 4.

 The attorney general’s office began investigating the booster club in 2010 after accusations the club was
 not turning over enough of its proceeds to the school. Authorities said money was used to pay for costs
 associated with the booster club’s bingo operation.

 “The money turned out to be too tempting for the defendants,” DeWeese said.

 The defendants claimed they took money out of the scholarship trust as a last-ditch effort, approved by
 attorneys, to fend off threatened foreclosure of the bingo hall.

 “This is not what the evidence shows,” DeWeese said.

 Assistant Ohio Attorney General Brad Tammaro elaborated when he addressed the court.

 “Attorneys were not told specific things when they were giving this advice,” he said.

 Tammaro said attorney John Allen did not know of the trust agreement and wasn’t told the money was to
 be used only for scholarships.

Page 1 of 3                                                                                            May 20, 2014 07:40:12AM MDT
http://www.mansfieldnewsjournal.com/article/20140519/NEWS01/305190009/Husband-wife-going-prison-booster-club-scandal

 “They created a special scholarship trust with the intent that the money would be untouched,” Tammaro
 said.

 The Mansfield Tyger All Sports Booster Club was created in 1992. It ran concession stands at sports
 events and a bingo game to earn money. It set up a scholarship trust as a separate entity, with $200,000
 deposited to generate interest to be used strictly for scholarships for student athletes.

 According to prosecutors, booster club officials were told after a March 2007 inspection that the club could
 not pay managers to run its bingo operation.

 The booster club rented space for its bingo games on Trimble Road, then bought the building, which
 became a money pit.

 Through Allen, boosters negotiated with Foundation Academy to buy the building.

 Kendall Clemons pleaded guilty to one count of complicity to attempted aggravated theft, two counts of
 grand theft, one count of complicity to attempted theft, one count of complicity to attempted money
 laundering and four counts of filing false and/or fraudulent tax returns.

 She received the prison sentence for grand theft and got five years probation on the other charges.

 She also will make restitution of $26,000 to the escrow account set up by the court as a result of a civil
 action previously filed by the attorney general’s office, which will distribute the funds at the conclusion of
 the legal proceedings in the case.

 DeWeese called her the “mastermind” of the operation. The judge also ordered her to pay back $67,770
 to the Social Security Administration.

 Defense attorney George Keyser made a case for his client.

 “Everything that Kendall did relative to the trust was with the advice of three separate attorneys,” he said.

 Kendall Clemons denied any illegal intentions.

 “We in no way wanted to abscond with this money,” she said. “We did this with the advice of attorneys
 because we were in over our heads.”

 None of said attorneys were at Monday’s hearing.

 William Clemons pleaded guilty to one count of complicity to attempted aggravated theft. He also pleaded
 guilty to three counts of filing false and/or fraudulent tax returns.

 The former police officer, wearing a motorcycle T-shirt and blue jeans, received a year for attempted
 aggravated theft and five years probation for the other charges.

 He agreed to pay $12,000 in restitution to the escrow account. He was a city police officer for more than
 24 years. He retired last July after charges came to light.

 Defense attorney Mark Cockley said the case had taken a toll on his client.
Page 2 of 3                                                                                            May 20, 2014 07:40:12AM MDT
http://www.mansfieldnewsjournal.com/article/20140519/NEWS01/305190009/Husband-wife-going-prison-booster-club-scandal


 “I can tell you in no uncertain terms, this has just short of killed Bill,” Cockley said.

 Clemons apologized for any embarrassment he caused and said he did not knowingly do anything wrong.
 He told DeWeese he was ready to accept his punishment.

 Patrick pleaded guilty to three counts of attempting to file incomplete, false and/or fraudulent tax returns
 for 2008, 2009 and 2010. All are first-degree misdemeanors. She also agreed to pay $36,000 in restitution
 to the escrow account.

 Patrick was the booster club president. Kendall and William Clemons were trustees. Mansfield City
 Schools severed its ties to the club in December 2010.

 The case was investigated by the attorney general’s office Ohio Organized Crime Investigations
 Commission. Tammaro said many students lost out on scholarship money.

 “That can never be repaired,” he said.

 DeWeese cited a lack of remorse on the part of the defendants and noted all three of them treated the
 money as tax-free revenue.




Page 3 of 3                                                                                            May 20, 2014 07:40:12AM MDT
